     OFFICE OF

INSPECTOR GENERAL




Semiannual Report to Congress

October 1, 1999 - March 31, 2000





  Federal Election Commission

       999 E Street, N.W.

            Suite 940

       Washington, D.C.




           May 2000

                                   TABLE OF CONTENTS


SUBJECT                                                                                     PAGE




EXECUTIVE SUMMARY..........................................................                    1


FEDERAL ELECTION COMMISSION.....................................                               8


AUDITS...................................................................................      10


AUDIT FOLLOW-UP...............................................................                 15


INVESTIGATIONS..................................................................               25


ADDITIONAL OFFICE OF INSPECTOR GENERAL

   ACTIVITY.........................................................................           26


ECIE AND PCIE ACTIVITY.....................................................                    28


REPORTING REQUIREMENTS..............................................                           30


TABLE I - QUESTIONED COSTS...........................................                          31


TABLE II - FUNDS PUT TO BETTER USE.............................                                32


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.......................                                    33


FEC/OIG STRATEGIC PLAN...................................................                      34


OFFICE OF INSPECTOR GENERAL HOTLINE......................                                      35





October 1, 1999 - March 31, 2000
                               EXECUTIVE SUMMARY


         This report is submitted pursuant to the Inspector General Act of

1978, as amended, and includes a summary of the Office of Inspector

General’s (OIG) activities for the period October 1, 1999 through March 31,

2000.

                 During this reporting period, follow-up work was conducted on

three audits and two audits were initiated. The first audit entitled,

Procurement Operations, is being conducted to determine whether the

FEC has an effective and efficient procurement system in place and whether

the procurement system complies with statutory and regulatory

requirements applicable to the FEC. The second audit entitled, Agency

Controls Governing the Process for Procurement of Vendor Training

Services, is assessing the adequacy of FEC’s control procedures for acquiring

outside vendor training and to assess the economy, efficiency and

effectiveness of the management process currently in place to acquire vendor

administered training. The audits and follow-up work are summarized

below:

         Audit of Procurement Operations - OIG-00-03, is currently in

         progress. The primary objectives of this audit are to 1) determine

         whether the Commission has an efficient and effective procurement

         system in place; and 2) determine whether the Commission’s

         procurement process complies with statutory and regulatory




October 1, 1999 - March 31, 2000                                              Page 1
        requirements. The OIG intends to determine whether the Commission

        has implemented the key acquisition reforms contained in the Federal

        Acquisition Streamlining Act (FASA) of 1994. The audit will involve

        steps such as interviews and review of records in order to achieve the

        audit objectives. It is anticipated that this report will be released

        during the next reporting period. Further details concerning this audit

        are discussed in the Audit section of this report.



        Audit of Controls Governing the Process for Procurement of

        Vendor Training Services - OIG-00-01, is also in progress. The field

        work has been completed and the draft report is being finalized. The

        primary objective of this audit is to assess economy, efficiency, and

        effectiveness of management controls governing the procurement of

        training services obtained from outside vendors. The audit has

        included interviewing agency staff, analyzing training records and

        reviewing training related financial information. Additional

        information pertaining to this audit are discussed in the Audit section.



        Follow-up work on the Audit of the Commission’s Management

        of Computer Software - OIG-98-05, was conducted during this

        reporting period. The original audit was released March 1999, with

        initial follow-up work completed during the last reporting period. The

        primary objectives of the audit were to 1) verify that the Commission’s



October 1, 1999 - March 31, 2000                                                Page 2
        computer software is in compliance with applicable copyright laws and

        Commission policies and procedures; 2) determine that adequate

        policies and procedures are in place to prevent unauthorized software

        use by Commission employees; and 3) ensure that adequate controls

        are in place to detect and prevent computer viruses. One finding and

        three audit recommendations were contained in the original report.

        One recommendation was closed during the initial follow-up work.



        The follow-up work consisted of numerous meetings, the inspection of

        documents and the review of records in order to determine whether

        corrective action had been taken to resolve the remaining

        recommendations. Based on our review of documents, and

        correspondence with the Data Systems Development Division (DSDD)

        staff, we found that DSDD has resolved the two remaining audit

        recommendations. Details of the follow-up work are discussed in the

        Audit Follow-up section of this report.



        Follow-up work on the Audit of the Management of Desktop and

        Laptop Computers (Computer Inventory) - OIG-97-03, was

        completed during this reporting period. The audit was originally

        released in January 1998, with initial follow-up work conducted during

        the prior six months. The primary objectives of the audit were to 1)

        identify and evaluate the adequacy of internal controls over desktop



October 1, 1999 - March 31, 2000                                           Page 3
        and laptop computers; and 2) evaluate the procedures in place to

        ensure that computer equipment having an acquisition cost over

        $5,000 is capitalized and that there is documentation to support the

        unit cost of computers under $5,000. Two recommendations were

        contained in the original report. The previous follow-up work reflected

        that while some progress had been made by DSDD, additional steps

        were needed to enable the OIG to close the recommendations.



        During the follow-up work conducted this period, documents and

        computer equipment were inspected by the OIG. Several meetings

        were held with division staff to clarify outstanding issues. These steps

        were taken to determine whether or not corrective action had been

        completed to implement the outstanding audit recommendations.

        Based on our work, we concluded that the DSDD had satisfactorily

        implemented the two outstanding recommendations. The Audit

        Follow-up section contains further information concerning this report.



        Follow-up work on the Audit of the Review of the Commission’s

        Employee Appraisal Process - OIG-97-02, was conducted during the

        last six months. The original audit was released January 1998, with

        follow-up work being conducted over the prior two reporting periods.

        The primary objectives of the audit were to 1) determine whether the

        Commission’s Employee Appraisal Process was in compliance with



October 1, 1999 - March 31, 2000                                           Page 4
        applicable Federal regulations and Commission Personnel Instructions;

        and 2) determine whether the Commission’s monetary incentive

        process is in compliance with applicable Federal regulations and

        Commission Personnel Instructions.



        The original report contained four audit recommendations. The follow-

        up work conducted during the previous reporting periods revealed that

        only one recommendation had been implemented.



        The follow-up work completed during this reporting period reflected

        the progress the Personnel Office has made in implementing two of the

        three remaining recommendations. Details concerning these issues

        are discussed in the Audit Follow-up section of this report.



        The OIG also continued to monitor the Commission’s progress in

addressing its Y2K responsibilities. The primary objective of this effort was

to keep the Commission informed of reported progress of the FEC’s Y2K

renovation project. The ability to deliver critical public services at the turn of

the century was of extreme importance to the FEC. During an open session

in November, the Chairman of the FEC asked the OIG to discuss the

agency’s progress in the renovation of its computer technology to be Y2K

compliant. This was the second public session held on this issue. The

Commissioners were particularly concerned about the degree of assurance




October 1, 1999 - March 31, 2000                                            Page 5
that the agency’s Y2K project team could provide for ensuring that the

computer systems and related technology were prepared for January 1, 2000.

In addition, the Commission wanted to know how project management was

ensuring that agency contractors and vendors, who report their products and

services as Y2K compliant; were in fact, compliant. Details regarding the

OIG’s role in monitoring the FEC’s Y2K progress is located in the Audit

section of this report.



        The OIG participated in a project in which we provided input on the

redesign of the FEC’s Web site. The primary purpose of the revamped Web

site was to reorganize the material therein to offer the most efficient

presentation of relevant and appropriate information to various audiences,

including the general public, candidates, and the media.



        Items available on the newly designed Web site include images of

campaign finance reports from candidates for the United States House of

Representatives, from Presidential campaigns, and from most other political

committees. In addition, the FEC’s Web site hosts the OIG’s Web pages

where we post copies of our audit reports and semiannual reports to

Congress.



                 The OIG also reviewed and commented on a draft publication

compiled by the Public Disclosure Division titled Federal Campaign Finance




October 1, 1999 - March 31, 2000                                           Page 6
Reports Online: A Guide to Using the FEC Web Site. The guide is intended

to be used by state offices which participate in the State Waiver Program to

assist users in the navigation of the Web site and retrieval of information.



        Three cash counts of the Federal Election Commission’s (FEC) imprest

fund were performed during this reporting period. Additional information on

these last three projects can be found in the Additional Office of the

Inspector General Activity section of this report.




October 1, 1999 - March 31, 2000                                          Page 7
                      THE FEDERAL ELECTION COMMISSION


        The Federal Election Commission (FEC) is an independent, regulatory

agency responsible for administering and implementing the Federal Election

Campaign Act (FECA). The FEC is composed of six Commissioners who are

appointed for six year terms by the President of the United States, with the

advice and consent of the Senate. The FECA likewise established the

positions of Staff Director and General Counsel, who are appointed by the

Commissioners.



                      OFFICE OF INSPECTOR GENERAL


        The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments

to the Inspector General Act of 1978 (P.L. 100-504).



        The responsibilities of the Inspector General as stated in P.L. 100-504

are as follows:

                 o	       conduct and supervise audits and investigations relating

                          to the Federal Election Commission’s programs and

                          operations;




October 1, 1999 - March 31, 2000                                               Page 8
                 o	       provide leadership, coordination, and to recommend

                          policies for activities designed to promote economy,

                          efficiency and effectiveness in the administration of

                          Commission programs and operations. To prevent and

                          detect fraud, waste and abuse in these programs and

                          operations, and;



                 o	       keep the Commissioners and Congress fully and currently

                          informed about problems and deficiencies and the need for

                          and progress of corrective actions.



The OIG staffing level for FY 2000 is 4 FTE. The staff consists of the

Inspector General, the Special Assistant to the Inspector General and two

Senior Auditors.




October 1, 1999 - March 31, 2000                                                  Page 9
                                               AUDITS


TITLE:                             Audit of Procurement Operations


ASSIGNMENT #:                      00-03


RELEASE DATE:                      In Progress


PURPOSE:                           The primary objectives of this audit are to 1)


determine whether the Commission has an efficient and effective


procurement system in place; and 2) determine whether the Commission’s


procurement process complies with statutory and regulatory requirements.




        The OIG has undertaken an audit of the Commission’s procurement

process for several reasons. First, the Commission’s procurement activities

have not been audited by the OIG since 1992 and changes in procedures, FEC

staff, and acquisition regulations necessitate a review. In addition, the

Administrative division reported the occurrence of unauthorized procurement

actions in late 1999 which the OIG believes should be reviewed to determine

the cause and provide solutions to prevent the reoccurrence. Lastly, a 1999

management review by an external audit firm, which was mandated by law,

identified possible internal control weaknesses in the FEC’s procurement

system.




October 1, 1999 - March 31, 2000                                                     Page 10
Audits (continued)



        The OIG intends to determine whether the Commission has

implemented the key acquisition reforms contained in the Federal Acquisition

Streamlining Act (FASA) of 1994. FASA provided several important tools to

improve the acquisition of goods and services in the Federal government. For

example, FASA encouraged the increased use of purchase cards and

simplified acquisition procedures to result in a less complex and faster

purchasing process. The audit will also include a review of internal controls

to ensure sound management practices are in place.



        The audit will include interviews of Commission staff, review of

procurement policies and procedures, examination of purchase

documentation, and other audit steps necessary to achieve the audit

objectives. The OIG anticipates the completion of the audit and release of

the report during the next reporting period.




October 1, 1999 - March 31, 2000                                           Page 11
Audits (continued)



TITLE:                             Audit of Agency Controls Governing the
                                   Process for Procurement of Vendor Training
                                   Services

ASSIGNMENT #:                      00-01

RELEASE DATE:                      In Progress

PURPOSE:                           The primary objective of this audit is to assess the

economy, efficiency and effectiveness of the management controls governing

the procurement of training services obtained from outside vendors.



        The audit has included interviewing agency staff, analyzing training

records and examining agency-wide records pertaining to the procurement of

vendor training services. To obtain a perspective on the adequacy of

management controls, we used OMB Directives and Federal regulations.



        We have limited the scope of the audit to vendor training acquired

through outside contractors for individual staff or groups. “In-house”

training developed and administered by and for agency staff is not included.

The field work has been completed and the report is in the draft stage. The

final report will be released during the next reporting period.




October 1, 1999 - March 31, 2000                                                  Page 12
Audits (continued)



TITLE:                             Agency Year 2000 Renovations

ASSIGNMENT #:                      98-08

RELEASE DATE:                      May 1999
(audit report)

PURPOSE:                           Issuance of our original audit report did not end

OIG involvement in the Y2K area. We continued to monitor the

Commission’s progress in addressing its Y2K responsibilities. During an open

session in November, the Chairman of the FEC asked the OIG to discuss the

agency’s progress in the renovation of its computer technology. Special

emphasis were placed on two priority areas: 1) systems that provide and

receive electronic data from outside parties; and 2) core business functions

that rely on computer processed data.



        We also immediately followed up and tracked the agency’s progress in

implementing the nine recommendations contained in the original audit

report. The OIG observed testing of the FEC FAXLINE System for Y2K

compliance and attended the FEC Y2K contingency planning meeting of

Division Directors. A meeting was held with the Y2K project team regarding

OIG review of FEC embedded chip technology for Y2K compliance. The OIG

also met with the FEC Contracting Officer regarding FEC computer service

contracts, subsequently analyzing documents for on-going Y2K evaluation.

In addition, we prepared an advisory memorandum analyzing the Data


October 1, 1999 - March 31, 2000                                                  Page 13
Audits (continued)



Systems Development Division memorandum regarding agency-wide staff

involvement in Y2K contracts.



        The OIG continued to be active in this area throughout the duration of

the project.




October 1, 1999 - March 31, 2000                                        Page 14
                                    AUDIT FOLLOW-UP


TITLE:                             Audit of the Commission’s Management of
                                   Computer Software

ASSIGNMENT #:                      98-05

RELEASE DATE:                      March 1999
 (audit report)

PURPOSE:                           The audit follow-up was conducted to determine

whether corrective action had been taken by management to resolve the two

audit recommendations contained in the audit report. The original audit

report was released on March 31, 1999, with prior follow-up work completed

during the previous reporting period.



        The primary objectives of the audit were to 1) verify that Commission

computer software was in compliance with applicable copyright laws and

Commission policies and procedures; 2) determine that adequate policies and

procedures were in place to prevent unauthorized software use by

Commission employees; and 3) ensure that adequate controls were in place to

detect and prevent computer viruses.



        The original audit included a review of computer software programs

installed on Commission computers to ensure that software complied with

applicable software copyright laws and Commission policies and procedures.

The OIG reviewed the Commission’s policies and procedures related to


October 1, 1999 - March 31, 2000                                               Page 15
Audit Follow-up (continued)



computer software to determine whether adequate policies were in place to

prevent unauthorized software use by employees. Lastly, a review of the

Commission’s anti-virus software system was performed to ensure adequate

controls were in place to detect and prevent computer viruses.



        The original audit report contained one audit finding that controls

needed to be strengthened to ensure the Commission’s computers are

adequately protected against computer viruses. Two recommendations were

directed to the Data Systems Development Division (DSDD) and one was

directed to the Accounting Office.



        During the last reporting period, the OIG conducted a follow-up of this

audit. We found that the Accounting Office had implemented procedures to

ensure that computers located in that office were adequately protected

against computer viruses, subsequently closing that audit recommendation.

The other two recommendations remained open.



        In follow-up work conducted during this reporting period, the OIG

concluded that the written guidelines issued by DSDD to Commission staff

on procedures required to protect Commission computers from the potential




October 1, 1999 - March 31, 2000                                          Page 16
Audit Follow-up (continued)



damage and disruption caused by computer viruses were sufficient to close

that recommendation.



                 The remaining recommendation dealt with ensuring that anti-

virus software and the current virus data files are installed on all PCs and

laptops. The OIG’s follow-up work to determine whether the DSDD had

adequately protected Commission computers involved the physical inspection

of several randomly selected PCs and laptops. The OIG found that the

DSDD had implemented the recommendations by installing anti-virus

software on computers or by taking other protective measures to guard

against computer viruses.



                 The OIG has concluded that DSDD accomplished the necessary

steps to close all recommendations.




October 1, 1999 - March 31, 2000                                         Page 17
Audit Follow-up (continued)



TITLE:                             Audit of the Commission’s Management of
                                   Desktop and Laptop Computers

ASSIGNMENT #                       97-03

RELEASE DATE:                      January 1998
 (audit report)

PURPOSE:                           The purpose of conducting this audit follow-up was

to determine whether management had taken corrective action to resolve the

two audit recommendations contained in the report. The original audit

report was released on January 14, 1998, with initial follow-up work

conducted in the prior six months.



        The primary objectives of this audit were to 1) identify and evaluate

the adequacy of internal controls over desktop and laptop computers; and 2)

evaluate the procedures in place to ensure that computer equipment having

an acquisition cost over $5,000 is capitalized and computer equipment with

unit costs under $5,000 are supported.



        The audit was designed to address the adequacy of the FEC’s

management of desktop and laptop computers and the accuracy and

reliability of inventory listings which are used by the FEC to assess needs,

support procurement action and manage and service the equipment. The




October 1, 1999 - March 31, 2000                                                Page 18
Audit Follow-up (continued)



audit also included a review of the adequacy of internal procedures used to

identify and capitalize automated data processing (ADP) equipment. Manual

or automated accounting procedures must ensure that all equipment with an

acquisition cost over $5,000 must be capitalized and reported to the U.S.

Department of Treasury. Equipment under $5,000 is expensed and reported

as such to Treasury.



        The audit included two recommendations to improve the management

of ADP equipment. First, the OIG recommended that divisions take an

annual physical inventory of laptop computers and forward the results to the

Data Systems Development Division (DSDD) to be reconciled with the

DSDD’s inventory database. The OIG recommended that the DSDD be

responsible for documenting the results of the inventory on an annual basis.

Second, the OIG recommended that written policies and procedures be

established for the accountability and control of personal computer property.

The OIG recommended that the policies and procedures be disseminated to

all agency personnel engaged in personal property management functions

and that appropriate policies, procedures, and training be provided to

involved personnel.




October 1, 1999 - March 31, 2000                                         Page 19
Audit Follow-up (continued)



                 In an audit follow-up conducted last reporting period, the OIG

concluded that the laptop computer inventory list documented by the DSDD

did not include all Commission laptops. The DSDD neglected to include in

the inventory list Commission owned laptops which had been retired and

placed in storage rooms. Therefore, the OIG was unable to close that

recommendation.



        The audit follow-up work during this period consisted of the inspection

of documents and computer equipment by the OIG. Several meetings with

management were necessary to ascertain if corrective action to resolve the

audit recommendations had been taken.



                 The OIG contacted the DSDD to determine whether an

inventory of laptop computers had been completed. After reviewing the

inventory list provided by DSDD, the OIG discovered the list was incomplete.

After discussion, the DSDD provided the OIG with a revised inventory list

which, after review, the OIG confirmed that DSDD had satisfactorily

implemented the recommendation.




October 1, 1999 - March 31, 2000                                            Page 20
Audit Follow-up (continued)



        The OIG also contacted DSDD to determine whether or not revised

written procedures were provided to management with guidance on lost,

stolen, and obsolete computer equipment. The DSDD provided the OIG with

documentation which incorporated the necessary procedures. The OIG

believes the policies and procedures provided important guidance on the

management and accountability of computer equipment, resulting in this

recommendation being closed.



        The OIG found that the DSDD implemented the recommendations by

conducting a physical inventory of laptop computers and issuing written

policies and procedures on the management of desktop and laptop computers

to division heads resulting in the closing of the two audit recommendations

contained in the original audit report.




October 1, 1999 - March 31, 2000                                          Page 21
Audit Follow-up (continued)



TITLE:                             Audit of the Review of the Commission’s
                                   Employee Appraisal Process

ASSIGNMENT #                       97-02

RELEASE DATE:                      January 1998
 (audit report)

PURPOSE:                           During this reporting period, the OIG continued to

follow-up on the status of the recommendations contained in the original

audit report to address weaknesses in the Commission’s employee appraisal

process. The primary objectives of our audit were to 1) determine whether

the Commission’s employee appraisal process was in compliance with

applicable Federal regulations and Commission Personnel Instructions; and

2) determine whether the Commission’s monetary incentive process was in

compliance with applicable Federal regulations and Commission Personnel

Instructions.



        The audit addressed compliance with the Commission’s Personnel

Instructions and Federal regulations as they related to the employee

appraisal process. The audit included a review of employee performance

folders and performance plans. In addition, the audit included a review of

performance and incentive awards to verify that the awards were granted in

accordance with Commission policy and Federal regulations and processed in




October 1, 1999 - March 31, 2000                                                Page 22
Audit Follow-up (continued)



a timely manner. Four recommendations were made in the report to correct

the weaknesses found in the Commission’s performance appraisal process.



        The OIG conducted the first follow-up in March of 1999. The OIG

reviewed personnel documents and interviewed Personnel Office staff to

determine whether management had implemented the four recommendations

contained in the original audit report. The OIG concluded that although

some action had been taken to correct the weaknesses identified by the OIG,

the actions were not sufficient enough to resolve the audit findings.



                 A second follow-up was conducted in September of 1999, and the

OIG concluded that management had implemented the recommendation

dealing with the retention of employee performance documents . That

recommendation was closed. However, the OIG concluded that management

had not adequately resolved the three outstanding recommendations.



        The OIG’s most recent follow-up review has resulted in the closure of

two more recommendations. The OIG found that the Personnel Office

developed a system to track the timeliness of appraisals, which includes a

notification process to alert management of late appraisals. In addition, the




October 1, 1999 - March 31, 2000                                         Page 23
Audit Follow-up (continued)



Personnel Office developed procedures to ensure reviewing officials review

employee appraisals before the appraisal is issued to the employee.



                 The OIG recognizes that the Personnel Office is beginning to

address the deficient performance standards. Performance standards or

plans are used to evaluate employees on an annual basis. The standards

contain both critical and non-critical job elements and should include at least

two expectation levels. In order to close this recommendation, the Personnel

Office should ensure employee performance standards are written in

accordance with the CFR and Commission policy. To correct the performance

standards, we believe a Commission-wide effort is necessary, requiring the

participation of Commission supervisors with guidance and oversight

provided by the Personnel Office.



                 This recommendation will remain open. We will continue to

monitor the progress of the Personnel Office’s actions to address this

outstanding recommendation.




October 1, 1999 - March 31, 2000                                           Page 24
                                   INVESTIGATIONS


No new investigations were opened during this reporting period.




October 1, 1999 - March 31, 2000                                  Page 25

      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General also routinely reads

all Commission agenda items and attends Finance Committee Meetings.



        During this reporting period, the OIG participated in a project in

which input was provided on the redesign of the FEC’s Web site. The

primary purpose of the Web site is to provide information and material in an

efficient and convenient manner to the general public, candidates, and the

media. The FEC’s Web site is used by the OIG to post copies of our audit

reports and semiannual reports to Congress.



        The OIG recently reviewed and commented on a draft publication

written by the FEC’s Public Disclosure Division titled Federal Campaign

Finance Reports Online: A Guide to using the FEC Web Site. The guide is

intended to be used by state offices which participate in the State Waiver

Program to assist users in the navigation of the Web site and retrieval of

information.




October 1, 1999 - March 31, 2000                                             Page 26
        A draft version of the Commission’s invitation policy was also reviewed

to ensure that the policy is consistent with appropriate laws and regulations.

The policy was additionally reviewed for efficiency and effectiveness.



        As an ongoing project, the Special Assistant to the Inspector General

performed three unannounced cash counts of the FEC’s imprest fund (OIG-

99-04, OIG-00-02, and OIG-00-04). The imprest fund consists of three

drawers totaling $2,500. The results of the cash counts revealed no overage

or underage and all cash was accounted for. Our reviews revealed that cash

disbursements from the imprest fund were reasonable and consistent with

FEC imprest fund policy.




October 1, 1999 - March 31, 2000                                         Page 27
                             ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



        The Inspector General (or staff) attending the following training,

programs and/or conferences during this reporting period:



        •    ECIE - Monthly Meetings

        • 	 PCIE - Professional Development Forum - Electronic Commerce in
            Government

        •    PCIE/ECIE - Joint Annual Meeting

        • 	 PCIE/ECIE - Retreat 2000 - The Evolving Role of the Inspector
            General in the New Millennium

        • 	 Institute of Internal Auditors - Windows NT, Managing and
            Controlling your Risks

        • 	 Association of Government Accountants - Annual Federal
            Leadership Conference: Welcome to the New Millennium

        • 	 Inspector General Auditor Training Institute - Fraud Auditing:
            Theory and Application

        • 	 Institute of Internal Auditors - 20th Annual Internal Auditing in
            Government Conference




October 1, 1999 - March 31, 2000                                             Page 28
        • 	 Information Systems Audit & Control Association - Penetration
            Testing: Accounting & Auditing

        •    USDA Graduate School - Federal Government Accounting I

        •    Small Agency Council - Leading the Organization

        • Federal Audit Executive Council - Welcome to the 21st Century

        • Association of Directors of Investigation Conference

        • OIG Webmasters Meeting

        •    FEC Law Manager Training




October 1, 1999 - March 31, 2000                                          Page 29
IG ACT                    REPORTING REQUIREMENTS                                         PAGE

Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:

Section 4(a)(2)           Review of Legislation-----------------------------------------------26

Section 5(a)(1)	          Significant Problems, Abuses, and
                          Deficiencies---------------------------------------------------------None

Section 5(a)(2)	          Recommendations with Respect to
                          Significant Problems, Abuses, and
                          Deficiencies---------------------------------------------------------None

Section 5(a)(3)	          Recommendations Included in Previous
                          Reports on Which Corrective Action Has
                          Not Been Completed-----------------------------------------------33

Section 5(a)(4)	          Matters Referred to Prosecutive
                          Authorities---------------------------------------------------------None

Section 5(a)(5)	          Summary of Instances Where Information
                          was Refused-------------------------------------------------------None

Section 5(a)(6)           List of Audit Reports----------------------------------------------10

Section 5(a)(7)           Summary of Significant Reports------------------------------10

Section 5(a)(8)           Questioned and Unsupported Costs-------------------------31

Section 5(a)(9)	          Recommendations that Funds be put
                          to Better Use--------------------------------------------------------32

Section 5(a)(10)	         Summary of Audit Reports issued before
                          the start of the Reporting Period for which
                          no Management Decision has been made----------------N/A

Section 5(a)(11)          Significant revised Management Decisions-------------N/A

Section 5(a)(12)	         Management Decisions with which the
                          Inspector General is in Disagreement-------------------None




October 1, 1999 - March 31, 2000                                                                      Page 30
                                          TABLE I

                       INSPECTOR GENERAL ISSUED REPORTS
                             WITH QUESTIONED COSTS


                                                    DOLLAR VALUE (in thousands)

                                                    QUESTIONED    UNSUPPORTED
                                         NUMBER        COSTS         COSTS




A. 	 For which no management               0             0             [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the            0             0              [0]
   reporting period

        Sub-Totals (A&B)                   0             0              [0]


C. 	 For which a management                0             0              [0]
     decision was made during
     the reporting period

        (i) Dollar value of disallowed     0             0              [0]
            costs

        (ii) Dollar value of costs         0             0              [0]
             not disallowed


D. 	 For which no management               0             0              [0]
     decision has been made by the
     end of the reporting period


E. 	 Reports for which no management       0             0              [0]
     decision was made within
     six months of issuance




October 1, 1999 - March 31, 2000                                              Page 31
                                          TABLE II

             INSPECTOR GENERAL ISSUED REPORTS WITH
        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                              NUMBER   DOLLAR VALUE
                                                        (in thousands



A.	     For which no management                 0            0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during                0            0
        the reporting period

C.	     For which a management                  0            0
        decision was made during
        the reporting period

        (i) 	    dollar value of                0            0
                 recommendations
                 were agreed to by
                 management

                 based on proposed              0            0
                 management action

                 based on proposed              0            0
                 legislative action

        (ii) 	   dollar value of                0            0
                 recommendations
                 that were not agreed
                 to by management

D. 	    For which no management                 0            0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                    0            0
        management decision
        was made within six months
        of issuance




October 1, 1999 - March 31, 2000                                    Page 32
                                             TABLE III

           SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
                OUTSTANDING FOR MORE THAN SIX MONTHS




                                                         Recommendations
Audit              Report          Management
Report             Issue            Response
Number             Date               Date               Number   Closed   Open

97-02              01/98             01/98                 4        3        1

97-03              01/98             03/98                 2        2        0

98-05              03/99             03/99                 3        3        0

98-08              05/99             04/99                 9        3        6




October 1, 1999 - March 31, 2000                                           Page 33
                                                                      FEC / OIG Strategic Plan
                                                          OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
OIG Products: To provide products and
                                                          processes, policies, and procedures to ensure                    work force in an environment that fosters
services that promote positive change in
                                                          the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
FEC policies, programs, and operations.
                                                          resources in support of our people and products.                 personal and professional growth.


Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
products and services that promote                                                                                         diverse and motivated employees.
positive change.                                            Objective A: Maintain a dynamic strategic
                                                            planning process.                                              Strategy:
                                                                                                                           - develop and implement a comprehensive recruiting program
Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
- establish common OIG standards for communicating          Strategy:                                                      abilities, and expertise necessary to make meaningful
results;                                                    - periodically review and update the strategic plan to
                                                                                                                           contributions to the OIG;
- conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                           - assess employee satisfaction and develop strategies to address
- solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                           employee concerns;
comment;                                                    develop short and long term plans to address them.
                                                                                                                           - identify reasons for staff departures and develop plans to foster
- comply with applicable statutory guidelines and                                                                          greater staff retention; and,
standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
- set realistic and appropriate milestones.                                                                                force.

Objective B: Address priority issues and
concerns of the Commission, Congress,
                                                            Objective B: Plan and conduct cost-
and Management.
                                                            effective work that address critical issues                    Objective B: Provide training and developmental
Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
- Federal Election Commission and Congressional
priorities;                                                 Strategy:                                                      Strategy:
- National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
- Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                            - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
- managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
- resource allocation in relation to policy objectives;     and,                                                           requirements are met.
- delivery of client service;                               - identify specific targets for OIG review that are the most
- causes of fraud and inefficiency; and,                    cost-effective
- automation and communication.



                                                            Objective C: Identify customer needs and
                                                            provide products and services to meet
Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
results of OIG products and services to                                                                                    when possible, performance that contributes to
assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
positive change.                                            - establish new customer feed back mechanisms;
                                                            - consider and evaluate customers feedback when
                                                            planning and developing products and services;
                                                                                                                           Strategy:
Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                           - develop and articulate expectations for each employee's
- Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                            briefing and testimony;
timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                            - promote open exchange of ideas and information through
- conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                            outreach and through use of e-mail; and,
results have been achieved.                                                                                                exceptional employee performance.
                                                            - receive, evaluate, and respond, as appropriate, to
                                                            information received through the OIG hotline and other
                                                            sources.


Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                            and consistent resolution and follow-up                        environment that promotes teamwork and
the OIG.                                                    procedures.                                                    effective communication.
Strategy:                                                   Strategy:
- establish professional communication and interaction
                                                            - ensure that IG follow-up procedures are followed and that
                                                                                                                           Strategy:
with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                            management is aware of their role in the process; and,
- incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                            - establish common OIG standards for terminology, date
- be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                            maintenance and communications.
options.


                                                            Objective E: Establish a positive and
                                                            productive working environment.

                                                            Strategy:
                                                            - reengineer or streamline OIG procedures to achieve the
                                                            most effective use of resources; and,
                                                            - ensure that necessary technologies, evolving and
                                                            otherwise, are made available to staff as needed.



Performance Measures: Determine the
timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
the report issue date.



                          October 1, 1999 - March 31, 2000                                                                                      Page 34
                              YOU CAN HELP


    REPORT: FRAUD, WASTE OR MISMANAGEMENT




                                     202-694-1015

                                   OR TOLL FREE

                                    1-800-424-9530



                 • INFORMATION IS CONFIDENTIAL
                 • CALLER CAN REMAIN ANONYMOUS


                                         OR

               WRITE THE OFFICE OF INSPECTOR GENERAL

                        FEDERAL ELECTION COMMISSION
                          999 E STREET, N.W., SUITE 940
                            WASHINGTON, D.C. 20463




October 1, 1999 - March 31, 2000                          Page 35
